   DEPARTMENT OF HEALTH & HUMAN SERVICES                                 OFFICE OF INSPECTOR GENERAL

                                                                         Washington, D.C. 20201




June 10, 2010

TO:             Yvette Sanchez Fuentes
                Director, Office of Head Start
                Administration for Children and Families


FROM:           /Lori S. Pilcher/
                Assistant Inspector General for Grants, Internal Activities,
                  and Information Technology Audits


SUBJECT:        Results of Limited Scope Review at Acelero Learning Clark County’s
                Head Start Program (A-09-09-00094)


The attached final report provides the results of our limited scope review of Acelero Learning
Clark County’s (Acelero Learning) Head Start program. The Administration for Children and
Families (ACF), Office of Head Start, requested this review as part of its overall assessment of
Head Start grantees that have applied for additional funding under the American Recovery and
Reinvestment Act of 2009 (Recovery Act).

President Obama signed the Recovery Act into law on February 17, 2009. The Recovery Act
includes measures to modernize our Nation’s infrastructure, enhance energy independence,
expand educational opportunities, preserve and improve affordable health care, provide tax
relief, and protect those in greatest need.

At the President’s direction, Federal agencies are taking critical steps to carry out the Recovery
Act effectively. All Federal agencies and Departments receiving Recovery Act funds must
maintain strong internal controls and implement oversight mechanisms and other approaches to
meet the accountability objectives of the Recovery Act.

The objectives of our limited scope review were to determine whether (1) Acelero Learning is
fiscally viable and (2) Acelero Learning’s financial management system adequately managed
and accounted for Federal funds.

We were unable to determine whether Acelero Learning is a fiscally viable Head Start grantee
because only limited audited financial data covering its startup operations for the year ended
December 31, 2007, were available at the time of our review. In addition, Acelero Learning’s
financial management system did not adequately manage and account for Federal funds.
Page 2 – Yvette Sanchez Fuentes


   •   Contrary to Federal regulations, Acelero Learning’s management affiliation agreement
       with Acelero Inc. was a sole-source agreement because Acelero Learning did not request
       or obtain competitive bids from other management companies. In addition, the affiliation
       agreement was a less-than-arms-length transaction that violated generally accepted sound
       business practices and created a conflict of interest or the appearance thereof.

   •   Contrary to Federal regulations and the terms of the affiliation agreement, Acelero
       Learning overcharged the Head Start program for Acelero Inc.’s management fees and
       other costs. Conversely, Acelero Learning undercharged the Extended Day and Food
       programs for these costs. This disproportionate allocation of costs resulted in Acelero
       Inc. earning an excessive profit.

   •   Contrary to Federal regulations, Acelero Learning charged the Head Start program for
       unallowable and unsupported costs.

   •   Acelero Learning’s systems and internal controls related to accounting, personnel,
       procurement, and property management had weaknesses.

In written comments on our draft report, Acelero Learning generally disagreed with our findings.
Acelero Learning stated that its management affiliation agreement with Acelero Inc. was
properly disclosed, structured, and implemented. In addition, Acelero Learning believed that
almost all of the costs charged to the Head Start program were allocable and allowable.
Furthermore, Acelero Learning disagreed with most of the weaknesses that we identified in its
systems and internal controls. Nothing in Acelero Learning’s comments caused us to revise our
findings.

In determining whether Acelero Learning should be awarded additional Head Start and Recovery
Act grant funding, we recommend that ACF consider the information presented in this report in
assessing Acelero Learning’s financial condition and ability to manage and account for Federal
funds.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

Please send us your final management decision, including any action plan, as appropriate, within
60 days. If you have any questions or comments about this report, please do not hesitate to
contact me at (202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov. Please refer to
report number A-09-09-00094 in all correspondence.


Attachment
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




 RESULTS OF LIMITED SCOPE
REVIEW AT ACELERO LEARNING
CLARK COUNTY’S HEAD START
         PROGRAM




                      Daniel R. Levinson
                       Inspector General

                          June 2010
                        A-09-09-00094
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Head Start is a national program that promotes school readiness by enhancing the cognitive,
social, and emotional development of children through the provision of health, educational,
nutritional, social, and other services to enrolled children and families. The program was most
recently reauthorized by Public Law 110-134, Improving Head Start for School Readiness Act of
2007. Within the U.S. Department of Health & Human Services, the Administration for
Children and Families (ACF), Office of Head Start, administers the Head Start program. Head
Start provides grants to local public and private nonprofit and for-profit agencies to deliver
comprehensive child development services to economically disadvantaged children and families.

Under the American Recovery and Reinvestment Act of 2009 (Recovery Act), P.L. No. 111-5,
enacted February 17, 2009, ACF received $1 billion, including nearly $354 million to help
improve staff compensation and training, upgrade Head Start centers and classrooms, increase
hours of operation, and enhance transportation services. An additional $356 million was
allocated to award all Head Start grantees a nearly 5-percent cost-of-living increase and bolster
training and technical assistance activities.

Acelero Learning Clark County (Acelero Learning), a for-profit agency, operates a Head Start
program that provides comprehensive early childhood development services for disadvantaged
preschool children and their families at locations throughout Clark County, Nevada. Acelero
Learning was incorporated in 2006 as a wholly owned subsidiary of Acelero Learning, Inc.
(Acelero Inc.), a for-profit agency located in New York City. On September 29, 2008, Acelero
Learning and Acelero Inc. entered into a management affiliation agreement in which Acelero
Inc. agreed to provide oversight, programmatic, and administrative support services to Acelero
Learning for all of its programs.

Acelero Learning is funded through Federal and State grants and was awarded ACF grant funds
for Head Start totaling $11,634,376 for the budget period April 1, 2008, through March 31, 2009.
Acelero Learning was also awarded Recovery Act grant funds for the budget period July 1, 2009,
through September 30, 2010, totaling $856,727 for cost-of-living increases and quality
improvement.

In addition to operating the Head Start program, Acelero Learning operates the Extended Day
and Food programs. The Extended Day program provides childcare for working parents before
and after the regular hours of the Head Start program. The Food program provides nutritious
meals and snacks to children enrolled in the Head Start program.

OBJECTIVES

The objectives of our limited scope review were to determine whether (1) Acelero Learning is
fiscally viable and (2) Acelero Learning’s financial management system adequately managed
and accounted for Federal funds.




                                                 i
SUMMARY OF FINDINGS

We were unable to determine whether Acelero Learning is a fiscally viable Head Start grantee
because only limited audited financial data covering its startup operations for the year ended
December 31, 2007, were available at the time of our review.

Acelero Learning’s financial management system did not adequately manage and account for
Federal funds:

   •   Contrary to Federal regulations, Acelero Learning’s management affiliation agreement
       with Acelero Inc. was a sole-source agreement because Acelero Learning did not request
       or obtain competitive bids from other management companies. In addition, the affiliation
       agreement was a less-than-arms-length transaction that violated generally accepted sound
       business practices and created a conflict of interest or the appearance thereof.

   •   Contrary to Federal regulations and the terms of the affiliation agreement, Acelero
       Learning overcharged the Head Start program for Acelero Inc.’s management fees and
       other costs. Conversely, Acelero Learning undercharged the Extended Day and Food
       programs for these costs. This disproportionate allocation of costs resulted in Acelero
       Inc. earning an excessive profit.

   •   Contrary to Federal regulations, Acelero Learning charged the Head Start program for
       unallowable and unsupported costs.

   •   Acelero Learning’s systems and internal controls related to accounting, personnel,
       procurement, and property management had weaknesses.

RECOMMENDATION

In determining whether Acelero Learning should be awarded additional Head Start and Recovery
Act grant funding, we recommend that ACF consider the information presented in this report in
assessing Acelero Learning’s financial condition and ability to manage and account for Federal
funds.

ACELERO LEARNING COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

In written comments on our draft report, Acelero Learning generally disagreed with our findings.
Acelero Learning stated that its management affiliation agreement with Acelero Inc. was
properly disclosed, structured, and implemented. In addition, Acelero Learning believed that
almost all of the costs charged to the Head Start program were allocable and allowable.
Furthermore, Acelero Learning disagreed with most of the weaknesses that we identified in its
systems and internal controls. We included Acelero Learning’s comments as Appendix B, but
we excluded the attachments because of their length.

Nothing in Acelero Learning’s comments caused us to revise our findings.


                                               ii
                                                  TABLE OF CONTENTS

                                                                                                                                  Page

INTRODUCTION....................................................................................................................1

          BACKGROUND ...........................................................................................................1
              Head Start Program ............................................................................................1
              Acelero Learning Clark County .........................................................................1
              Management Affiliation Agreement Between Acelero Learning
               and Acelero Inc. ..............................................................................................2
              Requirements for Federal Grantees ...................................................................2

          OBJECTIVES, SCOPE, AND METHODOLOGY .......................................................3
               Objectives ..........................................................................................................3
               Scope ..................................................................................................................3
               Methodology ......................................................................................................3

FINDINGS AND RECOMMENDATION.............................................................................4

          ACELERO LEARNING’S FISCAL VIABILITY ........................................................5

          ACELERO LEARNING’S FINANCIAL MANAGEMENT SYSTEM .......................5
               Sole-Source and Less-Than-Arms-Length Management Affiliation
                Agreement With Acelero Inc. .........................................................................5
               Disproportionate Charging of Costs to Head Start ............................................6
               Unallowable and Unsupported Costs Charged to Head Start ............................7
               Weaknesses in Systems and Internal Controls ..................................................8

          RECOMMENDATION .................................................................................................9

          ACELERO LEARNING COMMENTS AND OFFICE OF INSPECTOR
           GENERAL RESPONSE .............................................................................................10
               Sole-Source and Less-Than-Arms-Length Management Affiliation
                Agreement With Acelero Inc. .........................................................................10
               Disproportionate Charging of Costs to Head Start ............................................11
               Unallowable and Unsupported Costs Charged to Head Start ............................12
               Weaknesses in Systems and Internal Controls...................................................13

APPENDIXES

          A: EXAMPLE OF REIMBURSEMENT ARRANGEMENT UNDER MANAGEMENT
              AFFILIATION AGREEMENT

          B: ACELERO LEARNING COMMENTS




                                                                    iii
                                               INTRODUCTION

BACKGROUND

Head Start Program

Head Start is a national program that promotes school readiness by enhancing the cognitive,
social, and emotional development of children through the provision of health, educational,
nutritional, social, and other services to enrolled children and families. The program was most
recently reauthorized by Public Law 110-134, Improving Head Start for School Readiness Act of
2007. Within the U.S. Department of Health & Human Services (HHS), the Administration for
Children and Families (ACF), Office of Head Start (OHS), administers the Head Start program.

Head Start provides grants to local public and private nonprofit and for-profit agencies to deliver
comprehensive child development services to economically disadvantaged children and families,
with a special focus on helping preschoolers develop the early reading and math skills needed to
be successful in school. Local Head Start programs engage parents in their children’s learning
and emphasize parental involvement in program administration.

Under the American Recovery and Reinvestment Act of 2009 (Recovery Act), P.L. No. 111-5,
enacted February 17, 2009, ACF received $1 billion, including nearly $354 million to help
improve staff compensation and training, upgrade Head Start centers and classrooms, increase
hours of operation, and enhance transportation services. An additional $356 million was
allocated to award all Head Start grantees a nearly 5-percent cost-of-living increase and bolster
training and technical assistance activities.

Acelero Learning Clark County

Acelero Learning Clark County (Acelero Learning), a for-profit agency, operates a Head Start
program that provides comprehensive early childhood development services for disadvantaged
preschool children and their families at locations throughout Clark County, Nevada. Acelero
Learning was incorporated in 2006 as a wholly owned subsidiary of Acelero Learning, Inc.
(Acelero Inc.), a for-profit agency located in New York City.

Acelero Learning is funded through Federal and State grants and was awarded ACF grant funds
for Head Start totaling $11,634,376 for the budget period April 1, 2008, through March 31,
2009. 1 Acelero Learning was also awarded Recovery Act grant funds for the budget period
July 1, 2009, through September 30, 2010, totaling $856,727 for cost-of-living increases and
quality improvement.

In addition to operating the Head Start program, Acelero Learning operates the Extended Day
and Food programs:

      •    The Extended Day program provides childcare for working parents before and after the
           regular hours of the Head Start program. It is a Federal- and State-funded program.
1
    The Head Start program accounted for 86 percent of Acelero Learning’s total revenues.


                                                          1
           Within ACF, the Child Care Bureau awards Federal funds through a block grant to the
           State from the Child Care and Development Fund.

       •   The Food program, funded by the U.S. Department of Agriculture, provides nutritious
           meals and snacks to children enrolled in the Head Start program.

For the 16-month period ended June 30, 2009, Acelero Learning’s accounting records showed
Extended Day program revenues of $1,327,806 and Food program revenues of $819,142.

Management Affiliation Agreement Between Acelero Learning and Acelero Inc.

On September 29, 2008, Acelero Learning and Acelero Inc. entered into a management
affiliation agreement. 2 Under the agreement, Acelero Inc. agreed to provide oversight,
programmatic, and administrative support services to Acelero Learning for all of its programs,
including the Head Start, Extended Day, and Food programs. 3 Acelero Learning’s board of
directors has ultimate authority over the applicant, and the chairman of the board signed the
affiliation agreement.

For the Head Start program, the management affiliation agreement required Acelero Learning to
pay Acelero Inc. for “allowable, allocable out-of-pocket administrative and support costs
necessary to perform [oversight, programmatic, and administrative support] services either
directly or as measured by a fair and equitable cost allocation system.” 4

For programs other than Head Start (the Extended Day and Food programs), the affiliation
agreement stated that Acelero Inc. “shall bear the full cost of performing services necessary to
fulfill [Acelero Learning’s] responsibilities … in exchange for all revenues generated by such
programs.” Under the agreement, Acelero Learning and Acelero Inc. agreed that Head Start
funds would not be used to pay Acelero Inc. for services provided under the Extended Day and
Food programs or to subsidize the operation of the Extended Day and Food programs. (See
Appendix A for an example of the reimbursement arrangement under the affiliation agreement.)

Requirements for Federal Grantees

Pursuant to 45 CFR § 74.21, grantees are required to maintain financial management systems
that contain written procedures for determining the reasonableness, allocability, and allowability
of costs in accordance with the provisions of the applicable Federal cost principles and the terms
and conditions of the award. Grantees must maintain accounting records that are supported by
source documentation and must maintain financial systems that provide for accurate and
complete reporting of grant-related financial data. Grantees are also required to compare outlays
with budget amounts for each award and may use grant funds only for authorized purposes.
2
 According to the agreement, ACF specifically authorized Acelero Learning to enter into the affiliation agreement
with Acelero Inc.
3
  Acelero Inc. also provides management services to two other subsidiaries that are Head Start grantees (one grantee
is an Early Head Start grantee).
4
    Acelero Learning had three cost allocation plans covering the period April 2008 to August 2009.


                                                           2
OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

The objectives of our limited scope review were to determine whether (1) Acelero Learning is
fiscally viable and (2) Acelero Learning’s financial management system adequately managed
and accounted for Federal funds.

Scope

We conducted our audit for the limited purpose described in the objectives; thus, the audit would
not necessarily have disclosed all material weaknesses. Accordingly, we do not express an
opinion on Acelero Learning’s overall system of internal accounting controls. We also do not
express an opinion on the reasonableness of Acelero Learning’s cost allocation plans. We
performed limited tests and other auditing procedures on Acelero Learning’s financial
management system to assess its ability to administer federally funded projects. We did not
intend the audit to be a full-scope audit, nor did we intend to issue a report with fully developed
findings and recommendations.

We conducted our fieldwork in July and August 2009 at Acelero Learning’s administrative
office in Las Vegas, Nevada.

Methodology

To accomplish our objectives, we:

   •    reviewed relevant Federal laws and regulations;

   •    reviewed Acelero Learning’s policies, procedures, and accounting records;

   •    reviewed selected Federal grant award documentation to determine Acelero Learning’s
        Federal funding;

   •    reviewed Acelero Learning’s board of directors meeting minutes, articles of
        incorporation, and corporate bylaws;

   •    reviewed Acelero Inc.’s audited consolidated financial statements for the years ended
        December 31, 2007, and December 31, 2006;

   •    reviewed Acelero Learning’s unaudited financial statements for the period
        January 1, 2008, through June 30, 2009;

   •    reviewed the management affiliation agreement between Acelero Learning and Acelero
        Inc.;




                                                 3
   •   reviewed supporting documentation for selected costs that Acelero Learning charged to
       the Head Start program;

   •   reviewed Acelero Learning’s equipment inventory records;

   •   interviewed Acelero Learning’s executive director, interim director of finance, chairman
       of the board of directors, and head of the finance committee; and

   •   interviewed Acelero Inc.’s interim vice president of finance.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                          FINDINGS AND RECOMMENDATION

We were unable to determine whether Acelero Learning is a fiscally viable Head Start grantee
because only limited audited financial data covering its startup operations for the year ended
December 31, 2007, were available at the time of our review.

Acelero Learning’s financial management system did not adequately manage and account for
Federal funds:

   •   Contrary to Federal regulations, Acelero Learning’s management affiliation agreement
       with Acelero Inc. was a sole-source agreement because Acelero Learning did not request
       or obtain competitive bids from other management companies. In addition, the affiliation
       agreement was a less-than-arms-length transaction that violated generally accepted sound
       business practices and created a conflict of interest or the appearance thereof.

   •   Contrary to Federal regulations and the terms of the affiliation agreement, Acelero
       Learning overcharged the Head Start program for Acelero Inc.’s management fees and
       other costs. Conversely, Acelero Learning undercharged the Extended Day and Food
       programs for these costs. This disproportionate allocation of costs resulted in Acelero
       Inc. earning an excessive profit.

   •   Contrary to Federal regulations, Acelero Learning charged the Head Start program for
       unallowable and unsupported costs.

   •   Acelero Learning’s systems and internal controls related to accounting, personnel,
       procurement, and property management had weaknesses.




                                                4
ACELERO LEARNING’S FISCAL VIABILITY

We were unable to determine whether Acelero Learning is fiscally viable. Acelero Learning
provided us with a copy of Acelero Inc.’s audited consolidated financial statements for the years
ended December 31, 2007, and December 31, 2006. Based on the information provided, Acelero
Learning reported no financial activity for fiscal year (FY) 2006. For FY 2007, Acelero
Learning had only 9 cents in current assets for every $1 in current liabilities and incurred a net
loss of $138,454. Acelero Learning did not provide any audited financial information for
FY 2008. However, Acelero Learning did receive a Head Start grant of $303,357 for startup
costs for the period February 28 through September 1, 2008.

ACELERO LEARNING’S FINANCIAL MANAGEMENT SYSTEM

Acelero Learning’s financial management system did not adequately manage and account for
Federal funds.

Sole-Source and Less-Than-Arms-Length Management Affiliation Agreement With
Acelero Inc.

Acelero Learning’s management affiliation agreement with Acelero Inc. was a sole-source
agreement and a less-than-arms-length transaction.

Sole-Source Agreement

Pursuant to 45 CFR § 74.43, all procurement transactions shall be conducted in a manner to
provide, to the maximum extent practical, open and free competition. Acelero Learning entered
into a sole-source management affiliation agreement with Acelero Inc. Acelero Learning did not
request or obtain competitive bids, proposals, or offers from other management companies.

Pursuant to 45 CFR § 74.46, procurement records and files for purchases in excess of the
simplified acquisition threshold of $100,000 5 shall include the following at a minimum: the
basis for contractor selection, justification for lack of competition when competitive bids or
offers are not obtained, and basis for award cost or price. Acelero Learning’s procurement
records and files for the affiliation agreement with Acelero Inc. did not include the basis for
contractor selection, a justification for lack of competition, or the basis for award costs or prices.
The affiliation agreement set a $361,809 reimbursement limit for Head Start services.

Less-Than-Arms-Length Transaction

Pursuant to 45 CFR § 74.42:

           No employee, officer, or agent shall participate in the selection, award, or
           administration of a contract supported by Federal funds if a real or apparent
           conflict of interest would be involved. Such a conflict would arise when the

5
    The term “simplified acquisition threshold” means $100,000 as defined in 48 CFR § 2.101.



                                                          5
         employee, officer, or agent, or any member of his or her immediate family, his or
         her partner, or an organization which employs or is about to employ any of the
         parties indicated herein, has a financial or other interest in the firm selected for an
         award.

In addition, the Federal regulations (48 CFR § 31.201-3(b)(2)) for determining the
reasonableness of costs for commercial organizations require arm’s length bargaining and
generally accepted sound business practices to be followed. 6

The affiliation agreement between Acelero Learning and Acelero Inc. was a less-than-arms-
length transaction that violated generally accepted sound business practices and created a conflict
of interest or the appearance thereof. A conflict of interest or the appearance thereof was created
because the chief executive officer of Acelero Inc. (who signed the agreement for Acelero Inc.)
was also the interim chief executive officer and a member of the board of directors of Acelero
Learning when the agreement was formulated and negotiated. In addition, because Acelero Inc.
is the parent company, it has a financial interest in Acelero Learning (its wholly owned
subsidiary) and therefore could possibly influence the awards made by Acelero Learning.

Disproportionate Charging of Costs to Head Start

Pursuant to 48 CFR § 31.201-4, a cost is allocable if it is incurred specifically for the contract;
benefits both the contract and other work and can be distributed to them in reasonable proportion
to the benefits received; or is necessary to the overall operation of the business, although a direct
relationship to any particular cost objective cannot be shown.

Pursuant to 45 CFR § 74.81: “… no HHS funds may be paid as profit to any recipient even if the
recipient is a commercial organization. Profit is any amount in excess of allowable direct and
indirect costs.”

Contrary to Federal regulations and the terms of the affiliation agreement, Acelero Learning
overcharged the Head Start program for Acelero Inc.’s management fees and related travel and
for Acelero Learning’s meeting costs. Conversely, Acelero Learning undercharged the Extended
Day and Food programs for these costs. This disproportionate allocation of costs resulted in
Acelero Inc. earning an excessive profit. (See Appendix A for a comparison of the current
practice and correct approach.) The following are examples of disproportionate costs charged to
Head Start:

         •   For the period March 1, 2008, through March 31, 2009, Acelero Learning paid
             Acelero Inc. $430,828 for management services and charged the entire amount to the
             Head Start program. The services provided included accounting, administration,
             program development, human resources, education and training, and information
             technology support.



6
 Federal regulations (45 CFR § 74.27(a)) state that the cost principles for commercial organizations are found in the
Federal Acquisition Regulation (FAR) at 48 CFR part 31.


                                                         6
         •   For the period September 1, 2008, through March 31, 2009, Acelero Learning paid
             Acelero Inc. $19,555 for travel expenses incurred by Acelero Inc.’s employees when
             providing management services. The entire amount was charged to the Head Start
             program.

         •   Acelero Learning incurred $10,000 in costs for a training and staff development
             meeting held from August 18 through August 29, 2008, and charged the entire
             amount to the Head Start program. According to Acelero Learning’s interim director
             of finance, all employees attended this meeting.

Because the Extended Day and Food programs also benefited from these services, Acelero
Learning should have allocated to these programs their fair share of costs. Prior to the affiliation
agreement, Acelero Learning allocated some of Acelero Inc.’s travel costs to the Extended Day
program, which appeared to indicate that Acelero Learning acknowledged a shared benefit.

Unallowable and Unsupported Costs Charged to Head Start

Pursuant to 48 CFR § 31.201-2(a), among other requirements, a cost is allowable only when the
cost is reasonable, allocable, and complies with the terms of the contract. Pursuant to 48 CFR
§ 31.201-3(a): “A cost is reasonable if, in its nature and amount, it does not exceed that which
would be incurred by a prudent person in the conduct of competitive business.”

Pursuant to 48 CFR § 31.205-14: “Costs of amusement, diversions, social activities, and any
directly associated costs such as tickets to shows or sports events, meals, lodging, rentals,
transportation, and gratuities are unallowable.”

Pursuant to 45 CFR § 74.21(b)(7), the recipient’s financial management system shall provide for
accounting records that are supported by source documentation.

Based on our limited review, we found that Acelero Learning charged the Head Start program
for $1,418 in unallowable costs incurred by Acelero Inc.: 7

       $889 for the spouse of an Acelero Inc. employee to travel from New York City to Las
        Vegas, Nevada;

       $265 for a Global Positioning System (GPS) purchased by an Acelero Inc. employee that
        was never received by Acelero Learning, according to its interim director of finance; and

       $264 for entertainment.

According to Acelero Learning’s interim director of finance, supporting documentation for
Acelero Inc.’s services and expenses was not always provided to her. She told us that, in some

7
  In a May 2009 review, ACF identified $73,730 of unallowable costs that Acelero Learning charged to the Head
Start program, including $39,793 for Acelero Inc.’s employee recruitment and placement costs; $17,400 for
unallowable marketing, public relations, and special event costs; and $16,537 for a holiday party.



                                                       7
cases, Acelero Inc. provided only prepared checks for Acelero Learning’s approval and required
signatures.

In addition, Acelero Learning charged the Head Start program for unsupported costs.
Specifically, for the 8-month period ended May 31, 2009, Acelero Learning charged the Head
Start program $54,517, or about $6,800 per month, for program development services provided
by Acelero Inc.’s vice president of program development. Neither Acelero Learning nor Acelero
Inc. provided us with documentation supporting any program development services. Acelero
Learning employs a Head Start executive director, an operations director, three zone directors, a
program information specialist, and three center directors at a yearly salary cost of over
$583,000, plus benefits. It is reasonable to assume that these individuals’ duties would include
program development services.

Weaknesses in Systems and Internal Controls

Our limited review disclosed weaknesses in Acelero Learning’s systems and internal controls
related to accounting, personnel, procurement, and property management. Specifically, Acelero
Learning did not (1) have written policies and procedures to ensure that deposits with financial
institutions were adequately insured, (2) have written policies and procedures to ensure that
Federal funds not be used to pay employees in excess of the Head Start employee compensation
limit, (3) adequately segregate duties for timekeeping and payroll or for duties related to the
procurement of supplies, or (4) maintain adequate equipment inventory records.

Lack of Written Policies and Procedures for Deposits With Financial Institutions

Pursuant to 45 CFR § 74.22(i)(2), advances of Federal funds shall be deposited and maintained
in insured accounts whenever possible. Pursuant to section 11(a)(1)(A) of the Federal Deposit
Insurance Act, the Federal Deposit Insurance Corporation (FDIC) provides insurance coverage
for deposits with an FDIC-insured financial institution. Under 12 CFR § 330.1(n), FDIC
provides maximum insurance coverage of $250,000, including principal and accrued interest.

Acelero Learning did not have written policies and procedures to ensure that cash deposits at
financial institutions were adequately insured. Acelero Learning deposited grant funds in a
financial institution that is a member of the FDIC. For the period May 1 through May 31, 2009,
the balances that exceeded $250,000 ranged from $262,464 to $721,062. Because Acelero
Learning had no written policies or procedures, it had no assurance that its cash deposits were
adequately insured in amounts exceeding $250,000.

Lack of Written Policies and Procedures for Employee Compensation

Pursuant to section 653(b)(1) of the Head Start Act: “… no Federal funds may be used to pay
any part of the compensation of an individual employed by a Head Start agency, if such
compensation, including non-Federal funds, exceeds an amount equal to the rate payable for
level II of the Executive Schedule under section 5313 of title 5, United States Code.”




                                                8
Acelero Learning did not have written policies and procedures to ensure that Federal funds not
be used to pay employees in excess of the Head Start employee compensation limit. For 2009,
the rate payable for level II of the Executive Schedule was $177,000. At the time of our review,
none of Acelero Learning’s employees was paid more than $177,000.

Inadequate Segregation of Duties

Pursuant to 45 CFR § 74.21(b)(3), the recipient’s financial management system shall provide for
effective control over and accountability for all funds, property, and other assets.

Acelero Learning did not adequately segregate duties for timekeeping and payroll or duties
related to procurement of supplies. At the time of our audit, the same employee was responsible
for processing timesheets, entering required information in the payroll contractor’s system,
electronically submitting payroll information to the contractor for processing, and distributing
payroll checks to employees. In addition, the employee who purchased supplies was also
responsible for receiving and reviewing the items purchased. For internal controls to be
effective, duties should be segregated among different individuals.

Inadequate Equipment Inventory Records

Federal regulations (45 CFR § 74.34(f)(1)) specify that records shall be maintained accurately
for equipment acquired with Federal funds and federally owned equipment and must include,
among other things, the following information: (1) source of the equipment (including the award
number); (2) whether title vests in the recipient or the Federal Government; (3) information from
which one can calculate the percentage of the HHS share in the cost of the equipment;
(4) location and condition of the equipment and the date that the information was recorded;
(5) unit acquisition cost; and (6) ultimate disposition data, including the date of disposal and
sales price or the method used to determine current fair market value where a recipient
compensates the HHS awarding agency for its share.

Acelero Learning’s equipment inventory records did not identify the source of the equipment
(including the award number), where title vested, information to calculate the HHS share in the
cost of the equipment, the condition of the equipment (including the date that this information
was reported), the unit acquisition cost, and ultimate disposition data for all equipment. Because
Acelero Learning did not maintain adequate equipment inventory records, Acelero Learning is
unable to provide current information about the existence, use, and condition of its federally
funded equipment.

RECOMMENDATION

In determining whether Acelero Learning should be awarded additional Head Start and Recovery
Act grant funding, we recommend that ACF consider the information presented in this report in
assessing Acelero Learning’s financial condition and ability to manage and account for Federal
funds.




                                                9
ACELERO LEARNING COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

In written comments on our draft report, Acelero Learning generally disagreed with our findings.
Acelero Learning stated that its management affiliation agreement with Acelero Inc. was
properly disclosed, structured, and implemented. In addition, Acelero Learning believed that
almost all of the costs charged to the Head Start program were allocable and allowable.
Furthermore, Acelero Learning disagreed with most of the weaknesses that we identified in its
systems and internal controls. We included Acelero Learning’s comments as Appendix B, but
we excluded the attachments because of their length.

Nothing in Acelero Learning’s comments caused us to revise our findings.

Sole-Source and Less-Than-Arms-Length Management Affiliation Agreement With
Acelero Inc.

Acelero Learning Comments

Acelero Learning stated that OHS was fully aware of the relationship between Acelero Learning
and Acelero Inc. when it awarded the Head Start grant to Acelero Learning. In addition, Acelero
Learning stated that there was no prohibition against this type of relationship provided that it was
properly structured. Acelero Learning stated that the affiliation agreement was properly
structured to reimburse only the actual cost of performing Head Start services as provided for in
the FAR.

Furthermore, Acelero Learning stated that, contrary to the statements in the draft report, Acelero
Learning ensured that it obtained independent approval, free of real or apparent conflicts, of the
relationship between Acelero Learning and Acelero Inc. Specifically, Acelero Learning stated
that the chair of its board of directors approved the affiliation agreement before execution and
submission to OHS.

Acelero Learning also stated that Acelero Inc. and OHS have agreed to designate Acelero Inc. as
the Head Start grantee for Clark County and other areas served by Acelero-affiliated companies
and to have Acelero Learning and other local affiliates serve as delegate agencies. Because of
this agreement, Acelero Learning stated that the issues raised in the draft report should not serve
as a basis to question Acelero Learning’s ability to receive additional Federal funds.

Office of Inspector General Response

OHS was aware of the management affiliation agreement when it awarded the Head Start grant
to Acelero Learning. In addition, the agreement was structured to reimburse the actual cost of
performing Head Start services. However, in practice, Acelero Learning overcharged the Head
Start program and undercharged its other programs, resulting in excessive management fees and
profits earned by Acelero Inc.




                                                10
The affiliation agreement between Acelero Learning and Acelero Inc. violated Federal
regulations. Specifically, the agreement was a sole-source agreement because Acelero Learning
did not request or obtain competitive bids, proposals, or offers from other management
companies as required by Federal regulations (45 CFR § 74.43). In addition, contrary to Federal
regulations (45 CFR § 74.42 and 48 CFR § 31.201-3(b)(2)), the agreement was a less-than-arms-
length transaction, violated generally accepted sound business practices, and created a conflict of
interest or the appearance thereof.

The relationship between Acelero Learning and Acelero Inc. was not free of real or apparent
conflicts. Not only is Acelero Learning a wholly owned subsidiary of Acelero Inc. but the chief
executive officer of Acelero Inc. (who signed the agreement for Acelero Inc.) was also the
interim chief executive officer and a member of the board of directors of Acelero Learning when
the agreement was formulated and negotiated. This condition, in our opinion, constitutes a real
or apparent conflict of interest.

Regarding Acelero Learning’s comment that OHS has agreed to designate Acelero Inc. as the
Head Start grantee for Clark County, this would be an OHS program decision and does not affect
the facts presented in this report. Any decision regarding funding of a Head Start grantee for
Clark County is also an OHS program decision.

Disproportionate Charging of Costs to Head Start

Acelero Learning Comments

Acelero Learning agreed that it overcharged the Head Start program for travel costs incurred by
Acelero Inc.’s employees. However, Acelero Learning disagreed with the overall finding that
Head Start was overcharged for services provided by Acelero Inc. and stated that it utilizes a cost
allocation plan to charge shared costs and uses time and effort reports to directly charge unshared
costs. Specifically, Acelero Learning disagreed that it overcharged the Head Start program for
management services and for the training and staff development meeting. Acelero Learning
stated that Acelero Inc.’s management services related only to the Head Start program and that
the training and staff development meeting was conducted solely to meet Head Start program
requirements.

Acelero Learning requested that footnote 7 be removed because neither Acelero Learning nor
Acelero Inc. has ever received a report from ACF for the May 2009 onsite review.

Office of Inspector General Response

During our audit period, Acelero Inc.’s time and effort reports included both direct and indirect
activities. Employees’ time and effort reports included direct time charged to Acelero
Learning’s Head Start program and indirect time related to the Support Center. 8 Support Center
activities included support services, such as accounting, administration, program development,
human resources, education and training, and information technology. Because these services

8
  Acelero Inc.’s employees’ direct time related to the Extended Day and Food programs was not identified on the
time and effort reports.


                                                       11
benefited all of Acelero Learning’s programs, employee time and related costs should have been
allocated among all benefiting programs. Instead, Acelero Inc. directly charged 100 percent of
employees’ time to the Head Start program, creating an improper payment.

Because Acelero Learning acknowledged that the travel costs associated with Acelero Inc.’s
management services should have been allocated to all benefiting programs, a reasonable person
would conclude that the fees paid for the services should have been allocated to all benefiting
programs as well. In addition, the topics discussed at the training and staff development meeting
included timekeeping, recordkeeping, fiscal systems and forms, recruiting, classroom setup, and
Food program requirements. Because the Extended Day and Food programs benefited from this
meeting, Acelero Learning should have allocated a fair share of the costs to these programs.

We did not review Acelero Learning’s cost allocation plans. Therefore, as stated in our report,
we do not express an opinion on the reasonableness of Acelero Learning’s cost allocation plans.

We did not remove footnote 7 because our review showed that the costs questioned in the May
2009 ACF review were unallowable. Our review of Acelero Learning’s accounting records
showed that Acelero Learning credited the Head Start program for some of these unallowable
costs and reclassified these costs to the Extended Day program.

Unallowable and Unsupported Costs Charged to Head Start

Acelero Learning Comments

Acelero Learning stated that it has reimbursed the Head Start program for unallowable travel and
entertainment costs incurred by Acelero Inc. However, Acelero Learning disagreed with our
finding that the purchase of a GPS was unallowable. In addition, Acelero Learning disagreed
that it charged the Head Start program for unsupported costs for program development services
provided by Acelero Inc. According to Acelero Learning, for the period between March and
May 2009, Acelero Inc.’s vice president of program development produced 48 pages of
documents, all consistent with the description of Head Start services.

Office of Inspector General Response

According to Acelero Learning’s interim director of finance, there was no documentation to
support the purchase of the GPS. Therefore, the cost of the system was unallowable (48 CFR
§ 31.201-2(a)). In its comments on our draft report, Acelero Inc. did not provide any additional
documentation supporting the purchase of the GPS.

Regarding the program development services, Acelero Learning did not provide documentation
to support the $54,517 paid to Acelero Inc. for program development services, other than stating
that 48 pages of documents, consistent with the description of Head Start, were produced by
Acelero Inc. These documents were not provided to us. In our opinion, it is reasonable to
assume that Acelero Learning’s program management team could have provided the necessary
program development services.




                                               12
Weaknesses in Systems and Internal Controls

Acelero Learning Comments

Acelero Learning provided comments on the four weaknesses identified in systems and internal
controls:

   •   Acelero Learning stated that it could find no practical way to divide its financial
       operations such that its bank balances were below the $250,000 threshold at all times.
       Acelero Learning also stated that it was not aware of a regulation that states there must be
       a written policy for this issue and asked that the finding be removed from the report.

   •   Regarding the employee compensation limit, Acelero Learning stated that it was not
       aware of a regulation that states that there must be a separate written policy.
       Furthermore, Acelero Learning stated that the lack of written policies and procedures was
       not evidence of a weakness and asked that the finding be removed from the report.

   •   Acelero Learning stated that the finding related to segregation of duties for timekeeping
       and payroll had been fully addressed. Acelero Learning did not comment on the finding
       related to segregation of duties for procurement of supplies.

   •   Regarding equipment inventory records, Acelero Learning stated that such records were
       not necessary because, at the time of our review, it did not have any equipment in excess
       of $5,000 as defined by its fiscal policies and procedures.

Office of Inspector General Response

Federal regulations (45 CFR § 74.22(i)(2)) make it clear that advances of Federal funds should
be deposited in insured accounts whenever possible. Acelero Learning’s written policies and
procedures should reflect these requirements.

Acelero Learning’s policies and procedures should also reflect that no employee should be paid
in excess of the employee compensation limit (section 653(b)(1) of the Head Start Act). In
addition, Acelero Learning should ensure that it segregates duties related to the procurement of
supplies.

The equipment inventory records that Acelero Learning provided to us included 17 vehicles that
exceeded Acelero Learning’s $5,000 threshold for capitalizing equipment as defined by its fiscal
policies and procedures. These records did not identify the information required by Federal
regulations. Acelero Learning’s equipment inventory records should be updated to contain all
required information.




                                               13
APPENDIXES
                                                                                       Page 1 of 2


    APPENDIX A: EXAMPLE OF REIMBURSEMENT ARRANGEMENT UNDER
                MANAGEMENT AFFILIATION AGREEMENT


ASSUMPTIONS OF THE EXAMPLE

    •    Acelero Learning, Inc. (Acelero Inc.), provided $5,000 in management services to
         Acelero Learning Clark County (Acelero Learning) for a given year and billed Acelero
         Learning for this amount.

    •    The Head Start program benefited 80 percent from the management services provided by
         Acelero Inc.

    •    The Extended Day program benefited 20 percent from the management services
         provided by Acelero Inc.

    •    Acelero Learning drew down $5,000 in Head Start funds to cover costs incurred during
         the year.

    •    Acelero Learning was paid $1,000 in Extended Day funds by the State of Nevada based
         on a predetermined rate and the number of services to be provided. (There is no
         reconciliation of actual to “budgeted” costs after the costs are incurred.)

CURRENT PRACTICE

For the given year, Acelero Learning recorded to its accounting records $6,000 in funds received
($5,000 in grant funds from Head Start and $1,000 from the Extended Day program) and $5,000
in management fees for the Head Start program. Acelero Learning did not allocate costs to the
Extended Day program in accordance with the benefits received.


               Acelero Learning            Head Start Extended Day             Total

        Funds Received                        $5,000         $1,000            $6,000

        Expenses: Acelero Inc.                $5,000           $0              $5,000
        Management Fees

        Amount Paid to Acelero Inc.           $5,000         $1,000            $6,000
                                                                                     Page 2 of 2


Based on the terms of the affiliation agreement, Acelero Learning paid $5,000 to Acelero Inc. for
management services from the Head Start grant and transferred $1,000 to Acelero Inc. from the
Extended Day program, for a total of $6,000 in revenue to Acelero Inc. The terms of the
agreement state that Acelero Inc. shall bear the full cost of performing services necessary to
fulfill Acelero Learning’s responsibilities for the Extended Day and other programs in exchange
for all revenues generated by such programs. By not allocating the management fees between
the two programs, Acelero Learning (a wholly owned subsidiary) earned a $1,000 profit for
Acelero Inc. (the parent organization).

     Acelero Inc.

     Revenue                                     $6,000
     Cost of Services Provided                   (5,000)
     Net Income                                   1,000

CORRECT APPROACH

Acelero Learning should have allocated the $5,000 in management fees using a cost allocation
plan. Based on the assumptions provided, 80 percent of the management fees ($4,000) should
have been allocated to the Head Start program and 20 percent of the fees ($1,000) should have
been allocated to the Extended Day program.

            Acelero Learning            Head Start      Extended Day            Total

     Funds Received                       $5,000            $1,000             $6,000

     Expenses: Acelero Inc.                $4,000           $1,000              $5,000
     Management Fees

     Amount Paid to Acelero Inc.           $4,000           $1,000             $5,000

Under this approach, Acelero Inc. should have recorded $5,000 in revenues ($4,000 from the
Head Start program and $1,000 from the Extended Day program) and $5,000 for costs of
services provided.

     Acelero Inc.

     Revenue                                     $5,000
     Cost of Services Provided                   (5,000)
     Net Income                                       0
                                        Page 1 of 11


APPENDIX B: ACELERO LEARNING COMMENTS
Page 2 of 11
Page 3 of 11
Page 4 of 11
Page 5 of 11
Page 6 of 11
Page 7 of 11
Page 8 of 11
Page 9 of 11
Page 10 of 11
Page 11 of 11
